CERTIFICATE OF SERVICE
The undersigned hereby certifies that on this 31st day of October, 2020, a true and correct
copy of the foregoing PETITION FOR WRIT OF CERTIORARI was served upon the following
defendant by Priority “Express” Mail:

Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
(202) 479-3000

Larry Golden, Pro Se
740 Woodruff Rd., #1102
Greenville, South Carolina 29607
atpg-tech@charter.net

